                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A04050035
                                                                                     I           Page 1 of 1



          We received a referral fiom the Office of Audit concerning the absence of Institutional Review
          Board (IRB) review of approval for an NSF supported project.'         From the submitted description
          of the project it appeared that the p1s2intended to gather longitudinal data about students that were
          identifiable by student. They intended to collect grades, attitudes and success subsequent to
          participation in the NSF supported project.

          The PI^ told us he was unfamiliar with the IRB process. When we explained what an IRE3 was, the
          PI stated that it was a research grants administratorresponsibility. He subsequently informed us that
          he had obtained IRE3 approval.

          The IRB ~dministrator~    explained that the institutionSwould have considered this project to be
          exempt fiom the regulation if the data had been collected anonymously or was to be used for internal
          purposes only (similar to a university's internal analysis of its own student enrollment and progress).
           However, because the PISintended to publish and present the data the Administrator concluded that
          the project was covered by the regulation and the project was nonexempt.

          The project received a 1-year approval.

          Having resolved the issue of IRB review and approval of this grant, this case is closed.




          ' redacted
           redacted.
           redacted
           redacted
           redacted



NSF OIG Form 2 (1 1/02)
